HHS/OIG, Audit -"Review of Supplemental Executive Retirement Program (SERP) Costs Claimed by Blue Cross Blue Shield of Tennessee,"(A-07-04-00164)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Supplemental Executive Retirement Program (SERP) Costs Claimed
by Blue Cross Blue Shield of Tennessee," (A-07-04-00164)
October 4, 2004
Complete
Text of Report is available in PDF format (293 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the allowability
of Supplemental Executive Retirement Program (SERP) costs claimed by Tennessee
for Medicare reimbursement for Fiscal Years 1994 through 2002.  We found
that Tennessee had claimed $548,944 of unallowable SERP costs.  The overclaim
occurred because Tennessee did not fund the costs accrued for the SERP; thus,
according to the Cost Accounting Standards, the allowable costs are limited
to the actual benefit payments made.  Tennessee should revise its Final
Administrative Cost Proposals to eliminate unallowable SERP costs of $548,944.  Tennessee
agreed with our recommendation.